                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDLTM

11    Case Number: 1-03070027
                                                                                  11          Page 1 of 1



                                                                            '
            his investigation involving a large Southwestern school district was initially opened to
           determine if any NSF Grant funds were involved in two unrelated incidents of financial mis-
           management within the School District that were identified through several news articles
           obtained from the internet. The first issue was the embezzlement of $16,000 by a former district
           employee2that occurred in 1997. The embezzlement of those funds resulted in a criminal
           conviction of the former employee. The second incident involved the mis-management of'
           District funds by another employee3who is no longer associated with the district. This alleged
           mi's-management involved excessive salaries and other questionable financial practices.

           During this investigation, the school district was contacted and provided a written assurance4
           than none of the h d s involved in either incident were from any of the Grants awarded to the
           district by NSF.

           Based on this assurance and the lack of any contradictory information it is this investigator's
           conclusion that neither incident was related to any NSF funds and this matter requires no further
           action.

           Accordingly, this case is closed.
               I




11'
  NSE OIG Form 2 (1 1/02)
